June 2, 2021

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Moose Jooce, et al. v. Food and Drug Administration,
Docket No. 20-1203 Pending Petition for a Writ of Certiorari

Dear Mr. Harris:
Respondents’ brief in opposition in the above-captioned case was filed on June 2,
2021. Pursuant to Supreme Court Rule 15.5, Petitioners hereby expressly waive the
14-day waiting period for distribution of this case to the Court. Petitioners therefore
request that the Court distribute this case on its next distribution date for paid
cases, which Petitioners understand to be June 8, 2021, so that the petition may be
considered at the Court’s June 24, 2021 conference.
Sincerely,

Damien M. Schiff
Counsel of Record for Petitioners
cc: All Counsel

